No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

DERRICK E. STEILMAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION TO PROCEED INFORMA PAUPERIS
The Petitioner, Derrick E. Steilman, through Counsel, requests that this Honorable Court
allow him to proceed in forma pauperis. In support of his Motion, Petitioner represents as follows:
Appellate Counsel, David F. Ness, Assistant Federal Defender, and the Federal Defenders
of Montana, Inc., representing Petitioner before this Honorable Court, were appointed pursuant to
18 U.S.C. ยง 3006A.
DATED this 13 th day of September, 2021.

ANTH NY R. GALLAGHER
Federal Defender for the District of Montana
*DAVID F. NESS,
Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
*Counsel of Petitioner

